U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 18, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Neally Cunningham v. United States of America,
S.Ct. No. 20-6949

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 14,
2021, and placed on the docket on January 26, 2021. The government’s response is due on
February 25, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 29, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-6949
CUNNINGHAM, NEALLY
USA

ADAM LABONTE
RESEARCH AND WRTING ATTORNEY
400 N. TAMPA STREET
STE. 2700
TAMPA, FL 33602
813-228-2715
ADAM_LABONTE@FD.ORG

